                          U.S. Department of Agriculture

                             Office of Inspector General
                                       Southeast Region




               Audit Report

          Food and Nutrition Service
Special Wages Incentive Program in Puerto Rico




                                 Report No. 27099-60-AT
                                         December 2005
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Southeast Region - Audit
                                  401 West Peachtree Street, Suite 2328
                                         Atlanta, Georgia 30308
                                 TEL: 404-730-3210 FAX: 404-730-3221




December 23, 2005



TO:            Yvette Jackson
               Regional Administrator
               Food and Nutrition Service – Mid-Atlantic Region

ATTN:          Catherine Lueck
               Director of Financial Management

FROM:          Raymond G. Poland /S/
               Regional Inspector General

SUBJECT:       Food and Nutrition Service, Special Wages Incentive
               Program in Puerto Rico (Audit No. 27099-60-At)


This report presents the results of the subject audit. Your response dated December 16, 2005, to
the draft report is included in exhibit F, with excerpts and the Office of Inspector General’s
position incorporated into the relevant Findings and Recommendations section of the report.
Based on your responses, we have accepted management decision on all recommendations in the
report.

Follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer. Final action on the management decisions should be completed
within 1 year of the date of this report to preclude being listed in the Department’s Performance
and Accountability Report.

In your response you also pointed out what you believed to be two editorial errors in the reports.
We confirmed that $11.78 million correctly describes administrative costs in exhibit C and
$11.38 million in exhibit D. The recommendation on administrative expenses discussed in the
Executive Summary has been changed to agree with recommendations in the report.

We appreciate the cooperation and assistance provided by you and your staff during this audit.
Executive Summary
Food and Nutrition Service, Special Wages Incentive Program in Puerto Rico (Audit
Report No. 27099-60-AT)

Results in Brief                     The Special Wages Incentive Program (SWIP) in Puerto Rico subsidizes
                                     wages for employers hiring welfare recipients. The Food and Nutrition
                                     Service (FNS) funds SWIP through a Federal block grant, the Nutrition
                                     Assistance Program (NAP). The purpose of the program was to reduce
                                     welfare dependency, promote self sufficiency, and foster employment among
                                     NAP participants. The program is administered by the Puerto Rican
                                     Department of the Family (DOF).1 In recent years, SWIP’s budget has grown
                                     rapidly as the program’s popularity has increased. For fiscal years (FY) 2002
                                     to 2004, SWIP’s actual budget totaled $216 million—more than 41 percent of
                                     the entire sum spent on SWIP since 1989. In order to evaluate FNS’ controls
                                     over SWIP’s financial management and program operation, as well as DOF’s
                                     administration of the program, the Office of Inspector General (OIG)
                                     reviewed how effectively Federal funds were being used to achieve its
                                     program objectives.

                                     We found that DOF has not exercised adequate oversight over SWIP, and
                                     that the program was, consequently, in need of reform. Because DOF did not
                                     establish performance goals for evaluating SWIP’s successes and failures, it
                                     cannot fully account for how effectively Federal block grant funds have been
                                     spent or whether program objectives were achieved. In fact, the limited
                                     review DOF performed indicated that few SWIP participants achieved
                                     self-sufficiency. Of a sample of 31 SWIP participants, only 10 percent were
                                     no longer receiving NAP benefits.

                                     DOF did not determine if employers kept workers in their jobs after the
                                     subsidy ended. Most SWIP program documents describe the program’s goal
                                     as creating jobs, sometimes as creating new jobs. DOF has stated that this
                                     language was meant to prevent unsubsidized workers from being displaced
                                     by subsidized workers, not necessarily to require that the jobs they filled
                                     would be newly created. We found that DOF did not implement controls to
                                     ensure that workers were not displaced by the subsidy or that the program
                                     objectives were achieved.

                                     We also found serious problems with how DOF claims reimbursement from
                                     FNS for the administrative expenses of sponsors—Government and private
                                     organizations that acted as employment agencies to help place NAP
                                     participants. According to SWIP’s State Plans of Operations, only 50 percent
                                     of these sponsors’ administrative costs could be reimbursed with Federal
1
  An agency within DOF—the Administration for Socioeconomic Development of the Family—is responsible for the day-to-day operations of SWIP.
However, because the ultimate authority for the program’s administration resides with DOF, we have, for simplicity’s sake, referred to that entity
throughout.

USDA/OIG-AUDIT/27099-60-AT                                                                                                                    Page i
                   block grant funds—the other 50 percent must come from non-Federal
                   sources. Each Federal dollar spent must, in other words, be matched by a
                   dollar from another source. We learned, however, that no matching funds
                   existed and that Federal funds were therefore reimbursing DOF for
                   100 percent of its sponsors’ administrative costs. Consequently, in FYs 2002
                   through 2004, DOF overclaimed $11.78 million in administrative costs.

                   We also found that the rate at which DOF reimbursed sponsors far exceeded
                   actual costs incurred. By reviewing five sponsors’ audited financial
                   statements, we found that these documents report actual administrative costs
                   of $7.09 million. According to SWIP’s State Plans of Operations, these five
                   sponsors should have received $3.54 million in Federal compensation.
                   Instead, because DOF reimbursed sponsors at a fixed rate per worker placed
                   in a job, these sponsors received $11.38 million, or 321 percent of the sum
                   due them.

                   Lastly, DOF did not fully implement the system of controls, reviews, and
                   reporting requirements described in SWIP’s State Plans of Operations.
                   Because these controls were not fully implemented, the problems we
                   identified were not detected and corrected. FNS, as the supervising agency
                   charged with overseeing the use of Federal block grant funds, did not
                   adequately monitor DOF’s administration of SWIP.

                   During our audit, on May 6, 2005, DOF voluntarily froze SWIP, preventing
                   sponsors and employers from placing or hiring any additional workers. For
                   FY 2006, however, DOF and FNS are developing a new program to replace
                   SWIP. OIG concludes that future programs of this type should be designed to
                   provide assurance that program objectives are met and that Federal funds are
                   spent appropriately.

Recommendations
in Brief           FNS should require that DOF design any future program to more effectively
                   accomplish clear goals and to evaluate its success according to objective
                   performance measures.

                   FNS and DOF should collaborate to develop and fully implement an effective
                   system of controls, reviews, and reporting requirements for any future
                   program.

                   FNS should recover from DOF the $11.78 million in excessive administrative
                   reimbursement paid to sponsors during FYs 2002 through 2004, and to
                   require DOF to perform a review of administrative reimbursements paid to all
                   sponsors during FY 2005 and recover funds in excess of 50 percent of DOF’s
                   payments to sponsors.



USDA/OIG-AUDIT/27099-60-AT                                                              Page ii
Agency Response    In its December 16, 2005, written response to the draft report, FNS agreed
                   with the recommendations in the report. FNS has initiated corrective action
                   on all recommendations in the report. The FNS responses to the draft report
                   are included as exhibit F of the audit report.

OIG Position       We concurred with FNS’ proposed corrective actions and have reached
                   management decision on all of the report’s recommendations.




USDA/OIG-AUDIT/27099-60-AT                                                            Page iii
Abbreviations Used in This Report

ASED
  Administration for Socioeconomic Development of the Family.......................................................... 1
CFR
  Code of Federal Regulations............................................................................................................... 10
DOF
  Department of the Family ..................................................................................................................... 1
E&T
  Employment and Training .................................................................................................................... 2
FMR
  Financial Management Review........................................................................................................... 17
FNS
  Food and Nutrition Service................................................................................................................... 1
FY
  Fiscal Year ............................................................................................................................................ 2
GPRA
  Government Performance Results Act of 1993 .................................................................................... 3
IA
  Internal Audit ........................................................................................................................................ 6
NAP
  Nutrition Assistance Program ............................................................................................................... 1
OIG
  Office of Inspector General .................................................................................................................. 2
OPP
  Office of Plans and Programs ............................................................................................................... 6
SWIP
  Special Wages Incentive Program ........................................................................................................ 1
TEENAP
  Training, Experience, and Employment for NAP Participant Program................................................ 7




USDA/OIG-AUDIT/27099-60-AT                                                                                                                       Page iv
Table of Contents
Executive Summary .................................................................................................................................i
Abbreviations Used in This Report ......................................................................................................iv
Background and Objectives ................................................................................................................... 1
Findings and Recommendations............................................................................................................ 3
    Section 1. Overall Assessment.......................................................................................................... 3
        Finding 1             DOF Did Not Exercise Adequate Oversight Over SWIP ...................................... 3
                                Recommendation 1 .......................................................................................... 7
                                Recommendation 2 .......................................................................................... 8
    Section 2. Program Administration................................................................................................. 9
        Finding 2             DOF Overstated SWIP’s Administrative Expenses ................................................ 9
                                 Recommendation 3 ........................................................................................ 11
                                 Recommendation 4 ........................................................................................ 11
        Finding 3             DOF Did Not Fully Implement Management Controls Over SWIP .................... 12
                                Recommendation 5 ........................................................................................ 16
                                Recommendation 6 ........................................................................................ 16
                                Recommendation 7 ........................................................................................ 17
                                Recommendation 8 ........................................................................................ 17
Scope and Methodology........................................................................................................................ 19
Exhibit A – Summary of Monetary Results ....................................................................................... 20
Exhibit B – SWIP Budget for FYs 2002 through 2004 ...................................................................... 21
Exhibit C – Excessive Reimbursements for Sponsors’ Administrative Costs................................. 22
Exhibit D – DOF Reimbursements Made to Five Sponsors.............................................................. 23
Exhibit E – Locations Visited............................................................................................................... 24
Exhibit F – Agency Response............................................................................................................... 25




USDA/OIG-AUDIT/27099-60-AT                                                                                                                Page v
Background and Objectives
Background          On January 15, 1987, through an Executive Order of the Governor of Puerto
                    Rico, the Commonwealth created the Special Wages Incentive Program
                    (SWIP). The purpose of the program was to reduce welfare dependency,
                    promote economic self-sufficiency, and foster employment among Nutrition
                    Assistance Program (NAP) participants. The Administration for
                    Socioeconomic Development of the Family (ASED), an agency under the
                    Department of the Family (DOF), was commissioned to operate the program.
                    With the Food and Nutrition Service’s (FNS) approval, DOF was authorized
                    to use 5 percent of the annual block grant to run SWIP. The amount allocated
                    for the program would reimburse employers who hired NAP participants. In
                    addition, the program would reimburse 50 percent of the administrative costs
                    incurred by outside organizations known as sponsors, who would act as
                    employment agencies and place workers with employers. The program was
                    implemented in several cities with high unemployment rates and many NAP
                    participants. Initially, SWIP was available only to the manufacturing sector,
                    but in 1991 DOF received approval from the U.S. Department of Agriculture
                    to expand the program islandwide and to cover all economic sectors.

                    The SWIP program aims to place NAP participants in jobs and keep them
                    working in order to improve their economic situation. DOF reimburses the
                    employer 50 percent of the hourly rate paid to the NAP participant up to
                    $3.08 per hour. SWIP’s State Plans of Operations state that the employer
                    participating in the program must create a job for each NAP participant.

                    Employers enter into a contract to participate in SWIP for 18 months if the
                    employer is from any industry other than manufacturing. Employers from the
                    manufacturing sector enter into a contract to participate in SWIP for
                    36 months. In addition, if the employer retains the NAP participant for
                    12 months, DOF provides a special incentive of an additional $1.00 per hour.
                    This incentive would be paid from the 13th month of the contract until the
                    contract expires. DOF expects that at the end of the contract NAP participants
                    would continue working for their employers and would eventually be
                    removed from NAP.

                    To operate the program, DOF works with governmental and private
                    organizations known as sponsors. Sponsors act as employment agencies and
                    promote SWIP among employers, sign contracts with participating
                    employers, refer NAP participants for interviews, prepare workshops, and
                    collect employers’ invoices requesting wage reimbursement. Sponsors
                    receive their reimbursement at a fixed rate for each participant placed in a
                    job. This fixed rate should represent 50 percent of the administrative costs
                    they incur for operating SWIP.

USDA/OIG-A/27099-60-AT                                                                     Page 1
                    Each year DOF is required to submit to FNS a State Plan of Operations for
                    SWIP. This plan establishes how the program will be operated and presents
                    any program changes, subject to FNS approval. DOF also sets job growth
                    goals for each fiscal year (FY).

                    For FY 2002 DOF had agreements with 13 sponsors for the established goal
                    of creating 18,208 new jobs. DOF budgeted $57.6 million of the block grant
                    for SWIP. In FY 2003 DOF had agreements with 13 sponsors for the
                    established goal of creating 20,400 new jobs. DOF budgeted $69.7 million
                    for SWIP, but spent $71.5 million. In FY 2004 DOF had agreements with
                    12 sponsors with the established goal of creating 21,000 new jobs. DOF
                    budgeted $69.8 million, but spent $87.1 million (see exhibit B).

                    As a point of comparison, FNS’ Employment and Training (E&T) Program
                    provides welfare recipients educational opportunities designed to improve
                    their employment skills and to help them obtain jobs. The goal of the E&T
                    Program is identical to SWIP’s, viz., to help welfare recipients become more
                    self-sufficient and reduce their dependency on welfare benefits. In FY 2004
                    the total nationwide budget for the E&T Program was $220 million compared
                    to $87.1 million spent in Puerto Rico on SWIP for the same period.

Objectives          The audit was conducted as part of the Office of Inspector General’s (OIG)
                    annual audit plan to assess FNS’ and DOF’s controls over the financial
                    management and program operation of SWIP. The specific objectives were
                    to:

                         •   determine FNS’ responsibilities for oversight of the SWIP program;

                         •   determine if DOF and the sponsors provide adequate and effective
                             procedures, guidelines, and instructions for administering and
                             monitoring SWIP;

                         •   assess DOF’s and the sponsors’ financial management systems and
                             controls to ensure wage payments and administrative expenses
                             claimed are accurate, allowable, and properly supported;

                         •   evaluate performance goals and          outcomes   to   measure   the
                             effectiveness of program results; and

                         •   test the accuracy of DOF’s and sponsors’ administrative cost claims
                             and payments to employers for participants’ wages.




USDA/OIG-A/27099-60-AT                                                                     Page 2
Findings and Recommendations
Section 1. Overall Assessment



Finding 1                            DOF Did Not Exercise Adequate Oversight Over SWIP

                                     Since 1988, DOF has administered SWIP without identifying objective
                                     performance goals for measuring its overall success, without adhering to its
                                     established guidelines for reimbursing sponsors’ administrative costs, and
                                     without fully implementing adequate controls over program activities. This
                                     occurred because DOF did not exercise adequate oversight over SWIP
                                     administration and operations. FNS, thus, has little assurance that funds
                                     spent for SWIP were effectively used for their intended purpose. About
                                     $524 million has been expended between 1989 and 2004 for SWIP.

                                     According to SWIP’s 1988 State Plan of Operations, Congress accorded
                                     Puerto Rico considerable discretion over the establishment and delivery of
                                     nutrition assistance, particularly when that assistance was funded through
                                     block grants established as part of the Omnibus Budget Reconciliation Act
                                     of 1981. Although FNS approved Puerto Rico’s annual plans, the
                                     Commonwealth decided how the program would be administered. In
                                     essence, the Commonwealth determined all the major elements of the
                                     program, including eligibility requirements, benefit levels, and delivery
                                     mechanisms.

                                     Identifying meaningful performance measures for evaluating program
                                     activities is essential to DOF’s increased responsibility over Federal block
                                     grant funds. According to the Government Performance Results Act of 1993
                                     (GPRA), Federal agencies must prepare an annual performance plan
                                     covering each program activity, including performance goals to define the
                                     level of performance expected from each program activity.2 Such goals then
                                     form the basis of agencies’ evaluation of their programs’ successes. Because
                                     FNS is responsible for DOF’s use of Federal block grant funds, it should
                                     have worked with DOF to develop performance measures that would
                                     measure the success of its program.

                                     We found, however, that DOF did not provide adequate oversight over the
                                     SWIP program. Also, performance goals were not established to permit a
                                     clear appraisal of how the program was working. Significant problems thus
                                     developed over SWIP’s 17 years of operation. Together these problems
                                     indicate a program in need of reform.

2
  Requirements of GPRA are promulgated through the Office of Management and Budget, Circular A-11, part 6, “Preparation and Submission of Strategic
Plans, Annual Performance Plans, and Annual Program Performance Reports.” Strategic plans, annual performance plans, and annual program
performance reports (performance and accountability report) comprise the main elements of GPRA.

USDA/OIG-A/27099-60-AT                                                                                                                    Page 3
                    DOF Did Not Identify Objective Performance Goals

                    Since its inception, SWIP has operated without a clear means for objectively
                    determining how well the program was accomplishing its primary purpose.
                    Although SWIP documents often mention the goal of encouraging economic
                    self-sufficiency for NAP participants, DOF did not track the workers whose
                    jobs it subsidized to determine how many remained employed after the
                    subsidy ended. Thus, DOF’s internal reviews do not demonstrate that
                    program objectives were met.

                    SWIP’s State Plan of Operations for FY 1988 stated that the “fundamental
                    objective” of SWIP “is to provide an effective mechanism for improving the
                    economic situation and quality of life of existing NAP recipients through the
                    use of incentives for job creation.” This language is repeated in subsequent
                    State Plans of Operations. In FY 2002, the plan states that SWIP “will
                    significantly enhance the purchasing power of the present NAP participants,
                    [and] consequently improve their nutritional level, promote self-sufficiency,
                    strengthen families, [and] create jobs.” In FY 2004, the plan states that
                    employers must be selected on the basis of their “financial resources,
                    stability, market availability, potential for the creation of new jobs, and good
                    standing in the community.”

                    This language was translated into Spanish in the contracts employers signed
                    expressing their responsibilities when hiring NAP participants and receiving
                    the subsidy. Employers agreed “establecer una nueva empresa o expandir
                    sus operaciones y crear una fuerza laboral de por lo menos un (1) empleo
                    para un (2) participante del PAN,” or “to establish a new business or expand
                    its operations and create a labor force of at least one job for one NAP
                    participant.”

                    During the audit, DOF clarified its use of the word “create.” The agency
                    stated that “[n]one of the State’s plans identify the creation of new jobs as a
                    fundamental objective”: “When the State plan and the contract mention the
                    word ‘create,’ it stands for the placement of participants in jobs.” DOF
                    further explained that, in the contract’s language, the word “create” refers to
                    “the condition that none of the employers will replace regular employees
                    with NAP participants. The position for the NAP participant has to be either
                    new or vacant.” This language was considered necessary because DOF was
                    concerned that employers might displace regular employees and replace
                    them with subsidized NAP participants in order to reduce labor costs.

                    Without a clear definition of SWIP’s purpose, establishing objective
                    measures of the program’s success was difficult. In 2004, DOF issued a
                    limited review report of how well the program was functioning in FY 2002;
                    it did so without establishing objective performance measures defining the
                    program’s success or failure. That review found that many NAP participants
USDA/OIG-A/27099-60-AT                                                                       Page 4
                    were not retained in their subsidized jobs. In 2002, only 64 percent of NAP
                    participants retained their jobs at the end of the FY. This review also found
                    that only 10 percent of SWIP participants (3 of 31) were self-sufficient (i.e.,
                    no longer receiving NAP assistance). DOF has never determined what
                    benchmarks of program success it would consider acceptable and has taken
                    no action to correct these problems.

                    We conclude that DOF did not administer SWIP in such a way that it could
                    successfully achieve its program objectives. In future programs of this
                    nature, DOF must define the program’s purpose with greater clarity, design
                    controls to ensure that this purpose is carried out, and develop objective
                    measures to assess the program’s performance and its overall success.

                    DOF Overclaimed Reimbursement for Sponsors’ Administrative Costs

                    We also identified serious problems with how DOF claimed reimbursement
                    from FNS for the administrative costs of SWIP sponsors—Government and
                    private organizations that acted as employment agencies to help place NAP
                    participants. Both SWIP’s State Plans of Operations and the contracts
                    sponsors sign with DOF state that each Federal dollar used to reimburse
                    sponsors must be matched with non-Federal funds. In other words, Federal
                    reimbursement to DOF for sponsors’ administrative costs should not have
                    exceeded 50 percent of those costs and [emphasis added] should have been
                    matched by equal sums from other sources.

                    DOF reported to FNS that Federal funds were only being used to reimburse
                    50 percent of sponsors’ administrative costs, and that each Federal dollar
                    was being matched by a dollar from a non-Federal source. We found,
                    however, that no matching funds existed and that Federal funds reimbursed
                    100 percent of sponsors’ claimed expenses, which also exceeded the
                    50 percent limitation for administrative expenses allowed.

                    In FYs 2002 through 2004, this method of reimbursing sponsors’
                    administrative costs resulted in DOF receiving $11.78 million beyond the
                    50 percent Federal contribution it was permitted to claim (see Finding 2).
                    OIG concluded that DOF lacked controls for reimbursing sponsors’ actual
                    administrative costs according to SWIP’s State Plans of Operations and
                    other agreements.

                    Additionally, in 1988, DOF established a fixed rate of $500 as the equivalent
                    of sponsors’ administrative costs for placing a NAP participant. If this rate
                    were correct, then the Federal contribution should have been $250 per NAP
                    participant placed—the $250 difference should have been made up from
                    non-Federal sources.



USDA/OIG-A/27099-60-AT                                                                      Page 5
                    Although DOF has used this rate to reimburse sponsors for 17 years, it never
                    determined if this rate corresponded to sponsors’ actual administrative costs.
                    In 2005, by reviewing the audited financial statements of 5 of the
                    13 sponsors for 2002 and 2003, we determined that this rate exceeded
                    sponsors’ actual administrative costs. These five sponsors’ independently
                    audited financial statements reported actual administrative costs of
                    $7.09 million. Had they been reimbursed 50 percent of these costs, they
                    should have received $3.54 million. Instead, by paying sponsors at the fixed
                    rate of $250 per NAP participant, DOF in fact reimbursed these sponsors
                    $11.38 million or 321 percent in excess of the sum due them.

                    DOF Did Not Fully Implement SWIP’s State Plans of Operations

                    SWIP’s State Plans of Operations established a number of management
                    controls to ensure that the program was functioning as designed. Had these
                    controls been implemented, many of the program abuses we identified might
                    have been avoided (see Finding 3).

                         •   DOF’s Assistant Secretary for Planning and Information Technology
                             was required to review the administration of the program and all
                             sponsors; since 2002, the Assistant Secretary has issued only a single
                             report, and that report did not deal with the overall administration of
                             SWIP.

                         •   DOF’s Internal Audit (IA) Office was required to conduct an annual
                             fiscal audit of sponsors and employers. To date, IA has completed
                             only one audit, which was neither timely nor comprehensive.

                         •   ASED’s Office of Plans and Programs (OPP) was required to
                             determine sponsors’ effectiveness; however, since 1999, OPP had
                             completed only four reviews of individual sponsors. None of these
                             reviews found the problems we identified with the reimbursement of
                             administrative expenses.

                         •   Although DOF submitted reports to FNS semiannually, FNS
                             characterized those reports as useless.

                         •   DOF is required to submit biennial grant expenditure audits, but has
                             not done so since 1999; instead, FNS has accepted single audits in
                             their place even though single audits do not necessarily serve the
                             same purpose. Moreover, based on our review, corrective action on
                             these single audits has not always been achieved in a timely and
                             effective manner.



USDA/OIG-A/27099-60-AT                                                                       Page 6
                    Based on these control weaknesses, we concluded that both FNS and DOF
                    needed to increase oversight over SWIP operations. For future programs of
                    this type, FNS should work more closely with DOF to establish an effective
                    system of controls, reviews, and reporting requirements to ensure that
                    Federal funds are efficiently used to accomplish program goals.

                    During the audit, DOF took action and voluntarily froze SWIP on May 6,
                    2005, preventing sponsors and employers from placing or hiring any
                    additional NAP participants, but allowing workers to complete their existing
                    contracts. For FY 2006, DOF proposed to replace SWIP with another
                    program, the Training, Experience, and Employment for NAP Participant
                    Program (TEENAP). Like SWIP, TEENAP is to help NAP participants find
                    employment. DOF has conceived this new program as offering training for
                    better jobs and organizing activities to more actively promote
                    self-sufficiency. FNS is working closely and actively with DOF to develop
                    TEENAP. FNS’ active participation and supervision is, we believe, essential
                    to ensuring that the new program will function as designed.

Recommendation 1

                    For future programs including TEENAP—FNS should require DOF to
                    define the program’s purpose clearly, design controls to ensure that this
                    purpose is carried out, and develop objective measures to assess the
                    program’s performance and its overall success.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                             We agree with this recommendation and have already taken
                             steps to comply. After receiving DOF’s proposal for a new
                             *** [E&T] Program called TEENAPP ***, we provided a
                             comprehensive response in which we required DOF to
                             provide more detailed information on program controls and
                             measures of success. As a result, DOF provided a totally
                             revised plan on October 31, 2005. We will be holding a
                             conference call with DOF within the next few weeks to
                             review the revised plan in order to insure the overall budget
                             is reasonable, that there are sufficient overall controls to
                             insure the purpose of the program is carried out, and that
                             there are objective measures of success.

                    OIG Position. We accept management decision for this recommendation.




USDA/OIG-A/27099-60-AT                                                                   Page 7
Recommendation 2

                    For successor programs to SWIP, FNS and DOF should collaborate to
                    develop and implement a monitoring process that will allow both agencies
                    adequate control over block grant funds.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                            FNS concurs with this recommendation and will take the
                            following steps to comply:

                                •   We have provided revisions to the single audit
                                    compliance supplement to include SWIP and/or
                                    subsequent     ***    [E&T]    programs.    See
                                    recommendation 7 for details on the process for
                                    amending the supplement.

                                •   We will work with the State agency to develop a
                                    monitoring plan for the State’s review of TEENAPP
                                    once we have approved the new program. As stated
                                    above we will be holding a conference call with DOF
                                    to discuss overall controls and measures of success.

                                •   We will add a requirement so that the results of this
                                    State agency monitoring are included in the
                                    appropriate semiannual report on TEENAPP.

                                •   We will develop an internal review module for
                                    TEENAPP similar to the review module for the Food
                                    Stamp *** [E&T] Program once we have approved
                                    the new program. We will use this review module to
                                    conduct a review of TEENAPP in FY 2007.

                    OIG Position. We accept management decision for this recommendation.




USDA/OIG-A/27099-60-AT                                                                  Page 8
Section 2. Program Administration

                    DOF did not administer SWIP according to its FNS-approved State Plans of
                    Operations; this led to significant problems in how the program operated.
                    Although DOF can only claim Federal compensation for 50 percent of the
                    administrative costs incurred for operating SWIP, it overclaimed
                    $11.78 million in Federal funds during FYs 2002 through 2004.
                    Furthermore, DOF compensated sponsors at a fixed rate; this fixed rate far
                    exceeded DOF’s 50-percent share of actual administrative costs.

                    DOF did not fully implement the system of controls, reviews, and reporting
                    requirements established in SWIP’s State Plans of Operations. Had these
                    plans been fully implemented, many problems might have been identified
                    and corrected earlier in SWIP’s history. FNS also shares some responsibility
                    for not monitoring SWIP more closely and verifying that its State Plans of
                    Operations were fully implemented.




Finding 2           DOF Overstated SWIP’s Administrative Expenses

                    There were two serious problems with how DOF reimbursed administrative
                    expenses for SWIP—DOF overclaimed Federal reimbursement and also
                    reimbursed sponsors at an excessive rate. DOF claimed that Federal funds
                    used to reimburse sponsors were being matched, dollar for dollar, by non-
                    Federal sources. Because Federal funds were not being matched, FNS
                    reimbursed DOF 100 percent of sponsors’ administrative costs it claimed
                    rather than 50 percent. DOF also established a fixed rate for compensating
                    sponsors that was three times greater (321 percent) than 50 percent of their
                    actual administrative costs. Both problems resulted from a general
                    breakdown in the management controls meant to assure FNS that SWIP was
                    functioning as designed (see Finding 3). As a result, DOF received an
                    estimated $11.78 million in excessive reimbursements from Federal block
                    grant funds for sponsors’ administrative costs DOF had claimed in FYs 2002,
                    2003, and 2004. Since the program has operated in this manner for 17 years,
                    it is likely DOF has received excessive Federal reimbursement in other years
                    as well.

                    SWIP’s State Plans of Operations for 2002 through 2004 authorized DOF to
                    reimburse SWIP sponsors 50 percent of their allowable administrative costs
                    from Federal funds. The other 50 percent of these funds must come from
                    non-Federal sources.

                    We found, however, that DOF did not follow these matching requirements
                    and therefore received excessive Federal compensation.

USDA/OIG-A/27099-60-AT                                                                   Page 9
                                     DOF Overclaimed Administrative Expenses

                                     In the SF-269 financial reports DOF submitted to FNS for FYs 2002 and
                                     2003, DOF reported that Federal funds covered 50 percent of sponsors’
                                     claimed administrative costs and stated that sponsors contributed a matching
                                     50 percent. However, neither the Government of Puerto Rico nor sponsors
                                     contributed matching program funds. Instead of reimbursing 50 percent of
                                     these costs, FNS actually funded 100 percent of the claimed administrative
                                     expenses paid by DOF. When we referred this matter to FNS, officials agreed
                                     that the financial reports submitted by DOF overstated the Federal share of
                                     SWIP’s administrative costs.

                                     In FYs 2002 through 2004, FNS reimbursed DOF $23.56 million for
                                     administrative costs—the Federal contribution should have been matched,
                                     dollar for dollar, by non-Federal sources, but was not. Because FNS should
                                     only reimburse 50 percent of these administrative costs, DOF should have
                                     received only $11.78 million. (See exhibit C.)

                                     Block grant regulations provide that FNS may recover from the
                                     Commonwealth of Puerto Rico, through offsets to funding during any FY,
                                     funds previously paid to the Commonwealth and later determined by the
                                     Secretary to have been overpayments. Funds that can be recovered include
                                     unallowable costs discovered in an audit.3

                                     We conclude that FNS should recover from DOF the improper payment of
                                     $11.78 million.

                                     DOF Overcompensated SWIP Sponsors

                                     The DOF’s State Plans of Operations established that DOF, by utilizing
                                     Federal block grant funds, would reimburse sponsors 50 percent of their
                                     administrative costs. Sponsors were to match that reimbursement. However,
                                     we found that DOF was reimbursing sponsors at rates far exceeding
                                     50 percent of their actual administrative costs.

                                     Early in its administration of SWIP, DOF deviated from the program’s State
                                     Plans of Operations. Instead of reimbursing sponsors 50 percent of their
                                     actual administrative costs, DOF reimbursed sponsors for their administrative
                                     expenses based on a fixed rate per NAP participant placed in a job. DOF
                                     established the fixed rate in 1988 when DOF accepted the estimate of the sole
                                     sponsor participating in SWIP at that time. This sponsor determined that the
                                     administrative expenses incurred to place a NAP participant in a job would

3
 Provision of a Nutrition Assistance Grant for the Commonwealth of Puerto Rico, Title 7 Code of Federal Regulations (CFR) 285.2(c), dated January 1,
2003.

USDA/OIG-A/27099-60-AT                                                                                                                    Page 10
                                     be $500. Because DOF performed part of the sponsorship tasks, this sponsor
                                     was (and continues to be) reimbursed $200 per job placement (50 percent of
                                     the flat fee reduced to $400 per placement). As other sponsors joined the
                                     program and performed all the tasks required of sponsors, DOF reimbursed
                                     them 50 percent of the $500 fixed rate established in 1988, or $250 per job
                                     placement. DOF has never assessed whether this fixed rate corresponds to
                                     50 percent of sponsors’ actual administrative costs.

                                     We reviewed sponsors’ audited financial statements for 5 of the 13 sponsors4
                                     in order to establish their actual administrative costs; we then compared those
                                     costs with the compensation they received from DOF at the $250 fixed rate
                                     (see exhibit D). Although these five sponsors received $11.38 million in
                                     Federal funds, their independently audited financial statements report actual
                                     administrative costs of $7.09 million. Since DOF’s State Plans of Operations
                                     only allowed reimbursement of 50 percent of sponsors’ actual administrative
                                     costs, DOF should have reimbursed sponsors only $3.54 million. DOF thus—
                                     from Federal block grant funds—reimbursed these five sponsors 321 percent
                                     of what was due to them according to the State Plans of Operations.

                                     We conclude that DOF’s use of a fixed rate resulted in sponsors being
                                     compensated far in excess of actual costs.

Recommendation 3

                                     Recover from DOF the $11.78 million in excessive administrative
                                     reimbursement overclaimed during FYs 2002 through 2004.

                                     Agency Response. In its December 16, 2005, response, FNS officials
                                     stated, “FNS concurs with this recommendation and will bill DOF for
                                     $11.78 million and seek management decision at that time.”

                                     OIG Position. We accept management decision for this recommendation.

Recommendation 4

                                     Require DOF to perform a review of administrative reimbursements paid to
                                     all sponsors during FY 2005. Recover all funds that are in excess of
                                     50 percent of DOF’s payments to sponsors.




4
  Governmental and quasi-governmental agencies acting as sponsors are not required to submit financial statements: thus, 4 of the 13 sponsors were
excluded from this review. Of the remaining nine, we excluded four others because they received funds from other governmental programs and their
financial statements did not distinguish SWIP expenses from other program expenses.

USDA/OIG-A/27099-60-AT                                                                                                                      Page 11
                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                           FNS concurs with this recommendation. The agency will
                           formally direct DOF to review FY 2005 payments to sponsors
                           and provide the results of that review within 30 days of the
                           letter directing such review. As a result of this review, FNS
                           will bill DOF for overpayments in excess of 50 percent of
                           DOF’s payments to sponsors. We request management
                           decision for this finding.

                    OIG Position. We accept management decision for this recommendation.




Finding 3           DOF Did Not Fully Implement Management Controls Over SWIP

                    Although SWIP’s State Plans of Operations established a number of controls
                    that might have proved effective had they been implemented, DOF did not
                    fully implement those controls. FNS did not adequately monitor DOF’s
                    administration of SWIP to ascertain that the State Plans of Operations it
                    approved were, in fact, followed. As a result, FNS had little assurance that
                    the $524 million spent on SWIP since 1989 was used to accomplish program
                    goals efficiently and effectively.

                    When FNS approved DOF’s State Plans of Operations for SWIP, the agency
                    accepted a set of controls, reviews, and reporting requirements that were
                    meant to ensure that SWIP functioned as designed. The State Plans of
                    Operations require several entities of DOF to monitor SWIP—the Assistant
                    Secretary for Planning and Information Technology, the IA Office, and
                    ASED’s OPP. Because DOF was required to report semiannually, FNS also
                    had monitoring duties over SWIP, including reviewing semiannual reports
                    and requesting additional information, if needed.

                    DOF Did Not Fully Implement the FNS-Approved State Plans of Operations

                    We found, however, that many of the controls established in SWIP’s State
                    Plans of Operations were not fully implemented and thus could not ensure
                    that the program was functioning as designed. According to SWIP’s State
                    Plans of Operations, three different entities were required to perform specific
                    monitoring tasks:




USDA/OIG-A/27099-60-AT                                                                     Page 12
                         a. DOF’s Assistant Secretary for Planning and Information Technology

                         SWIP’s State Plans of Operations require the Assistant Secretary’s office
                         to evaluate both DOF’s administration of the program and all sponsors to
                         ensure compliance with administrative guidelines, program regulations,
                         procedures, and requirements. Apart from requiring that the Assistant
                         Secretary review sponsors, this requirement includes verifying that IA
                         and ASED’s OPP monitor SWIP as required in the State Plans of
                         Operations.

                         The State Plans of Operations represent adequate control had they been
                         implemented consistently; however, the Assistant Secretary’s office did
                         not timely complete its reviews. Since 2002 the Assistant Secretary has
                         issued only a single report regarding SWIP and that report reviewed
                         sponsors, not the program’s overall administration. Further, the Assistant
                         Secretary has not exercised sufficient oversight over the Department’s
                         administration of SWIP to ensure that OPP and IA are performing their
                         reviews.

                         b. DOF’s IA Office

                         SWIP’s State Plans of Operations require the IA Office of DOF to
                         annually conduct a comprehensive fiscal audit of sponsors and
                         employers to verify that they are complying with fiscal and
                         administrative program requirements.

                         The controls established for IA are adequate had they been implemented;
                         however, IA conducted only one audit of SWIP’s operation; that report
                         was neither comprehensive nor timely. It reviewed only documentation
                         obtained from ASED and did not find problems disclosed in Finding 2.
                         Also, the report was not delivered until May 2003. The report identified
                         deficiencies in the operation of SWIP that included: (1) documentation
                         not being submitted by the Finance Division to support sponsor and
                         employer payments; (2) sponsors not meeting their employment goals;
                         (3) insufficient internal controls to verify that claims submitted by
                         employers were for participants who worked a minimum of 20 hours per
                         week; (4) untimely submission of financial reports (SF-269) to FNS; and
                         (5) expenses and obligations exceeding the approved budget. We found
                         no evidence that DOF had taken corrective actions to address these
                         deficiencies.

                         c. ASED’s OPP

                         SWIP’s State Plans of Operations require ASED’s OPP to determine
                         sponsors’ effectiveness. The plans also require OPP to verify that
                         corrective actions for audits have been effected. Had OPP maintained
USDA/OIG-A/27099-60-AT                                                                     Page 13
                                           sufficient oversight of sponsors to verify that they fulfilled their
                                           contractual obligations to ASED and DOF, the problems identified in
                                           Finding 2 might have been prevented.

                                           The State Plans of Operations direct OPP to determine sponsors’
                                           effectiveness without establishing specific guidelines for gauging that
                                           effectiveness. There are specific criteria within the plans for sponsors,
                                           but no requirement that the reviews minimally assess sponsors according
                                           to those criteria.

                                           OPP has not completed enough reports to ensure that sponsors fulfill
                                           their obligations. To date, OPP has completed only 4 reviews of
                                           individual sponsors since its inception in 1999 yet, when our fieldwork
                                           ended, there were 12 sponsors participating in SWIP.5 The State Plans of
                                           Operations do not require OPP to provide FNS with copies of its reviews
                                           and the related corrective actions for any deficiencies discovered. Thus,
                                           FNS had not received and could not use the results of OPP’s four
                                           reviews to assess program operations. In 2004 OPP began three new
                                           reviews. As a result of the reviews, one sponsor was referred to the
                                           Department of Justice for investigation before the report was completed.
                                           One report was issued April 2005 and the other report is currently being
                                           written.

                                We conclude that DOF could improve its controls over SWIP by fully
                                implementing the FNS-approved State Plans of Operations. Moreover, because
                                these three reviews should provide important insight into how SWIP is
                                functioning, DOF should include their findings in its semiannual reports to FNS.

                                FNS Did Not Maintain Adequate Oversight of DOF’s Administration of SWIP

                                FNS is responsible for monitoring DOF’s administration of SWIP. Its two
                                primary means for overseeing SWIP are the semiannual reports DOF submits
                                and the biennial audits DOF is required to conduct. Our review found, however,
                                that these two tools were not providing FNS with the information it needed to
                                monitor SWIP.

                                           a. Semiannual Reports

                                           Currently, DOF submits semiannual reports according to FNS’ 1992
                                           guidelines. Although FNS officials stated that the semiannual reports
                                           DOF submits do not help FNS determine the program’s effectiveness,
                                           FNS has not revised its guidelines to produce a more useful oversight
                                           tool. A more useful semiannual report would evaluate DOF’s

5
 After the completion of our fieldwork, we learned that DOF had revoked the contract of one of the sponsors reviewed due to non-compliance with
program regulations. DOF canceled the contract effective March 28, 2005.

USDA/OIG-A/27099-60-AT                                                                                                                    Page 14
                                             management of SWIP according to objective performance-based goals,
                                             disclose activities outside established program guidelines, identify
                                             needed improvements, and report the results of internal reviews and
                                             corrective actions taken.

                                             b. Biennial Grant Expenditure Audits

                                             Regulations require DOF to prepare an audit of expenditures at least
                                             once every 2 years.6 This audit should provide FNS assurance that grant
                                             funds were properly expended and detail any deficiencies. However,
                                             since 1999, DOF has submitted single audits (Office of Management and
                                             Budget Circular A-133) in lieu of these biennial audits. In practice, FNS
                                             has accepted this substitution and presently accepts the A-133 single
                                             audit for SWIP expenditures. In order for single audits to serve the same
                                             purpose as biennial grant expenditure audits, however, they must be
                                             performed timely, they must include SWIP within their scope, and any
                                             corrective action they recommend must be fully implemented.

                                             Our review found that single audits were not always received in a timely
                                             manner. Although single audits were conducted every year between
                                             1998 and 2001, FNS did not receive these reports until November 2002.
                                             FNS officials stated they had to routinely wait for DOF to provide its
                                             audit reports and there was very little they could do to speed up the
                                             process. FNS had not, however, used its regulatory authority to require
                                             DOF to timely submit its biennial audits or face sanctions.7

                                             We also found that corrective action suggested by single audits had not
                                             always been fully implemented. The single audit reports for 2000
                                             through 2002 concluded that DOF lacked an effective internal control
                                             structure, did not possess sufficient internal controls over its accounting
                                             and financial management, and had not implemented an effective filing
                                             system.8 We found that many of the same problems addressed in earlier
                                             single audits continued to exist in 2004. FNS explained that it was too
                                             soon after corrective actions were reached to see a difference; OIG,
                                             however, is concerned that corrective actions are not timely.

                                             Whether FNS accepts biennial or single audits as fulfilling DOF’s
                                             reporting requirements, FNS must take steps to ensure that these audits
                                             serve as useful tools for holding DOF accountable for SWIP program
                                             funding.

                                      We conclude that DOF and FNS have not fully implemented the controls,
                                      reviews, and reporting requirements necessary to ensure that SWIP functions

6
  7 CFR 285.4(a), dated January 1, 2003.
7
  7 CFR 285.5(A), dated January 1, 2003.
8
  They are in the process of issuing the single audit report for FY 2003 and 2004.

USDA/OIG-A/27099-60-AT                                                                                          Page 15
                    as designed. So long as SWIP continues to operate, FNS and DOF must
                    collaborate to ensure that adequate control is maintained over program
                    activities and expenditures.

Recommendation 5

                    Establish procedures in FNS program reviews to ensure DOF fully
                    implemented the controls, reviews, and reporting requirements in its State
                    Plans of Operations.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                          FNS concurs with this recommendation. As stated in
                          recommendation 2, we will develop an internal review module
                          for TEENAPP similar to the review module for the Food Stamp
                          *** [E&T] Program once we have approved the new program.
                          We will use this review module to conduct a review of TEENAPP
                          in FY 2007. However, even if a successor program is not
                          approved, we will conduct a review of the SWIP phase-out in
                          FY 2006 to make sure the program is being concluded in an
                          efficient and effective manner.

                    OIG Position. We accept management decision for this recommendation.

Recommendation 6

                    Considering the reviews that should be performed under DOF’s State Plans
                    of Operations, FNS should determine what information should be included in
                    DOF’s semiannual report.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                         FNS concurs with this recommendation and will revise the State’s
                         semiannual report as part of TEENAPP implementation so that it
                         includes the following:

                            •   the results of the State agency’s internal review of
                                TEENAPP and the status of corrective action
                            •   data on the TEENAPP similar to the data now captured on
                                the FNS-583 for the Food Stamp *** [E&T] Program. This
                                will enable us to monitor whether the new program is
                                meeting its goals;



USDA/OIG-A/27099-60-AT                                                                 Page 16
                         Also, during our conference call (mentioned above) we will work
                         with DOF to identify what information on SWIP phase-out should
                         be included in the semiannual report.

                    OIG Position. We accept management decision for this recommendation.

Recommendation 7

                    Direct DOF either to resume biennial audits of expenditures as required by
                    regulations, or request that SWIP be included within the scope of single
                    audits. FNS should formally advise DOF to timely submit all audit reports,
                    and use fiscal sanctions for non-compliance when appropriate.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                           FNS concurs with this recommendation. The agency has
                           already submitted a revision to Puerto Rico’s *** NAP
                           Compliance Supplement to specifically include SWIP or a
                           modified *** [E&T] program as part of the scope of the single
                           audit. This revision is currently pending Office of
                           Management and Budget *** review and approval. If
                           approved, the change would be published April 1, 2006 and
                           become effective for the SFY 2006 single audit.

                           In addition, FNS will advise DOF in writing by January 30,
                           2006 to submit all audit reports timely and that fiscal
                           sanctions may be imposed for non-compliance, as
                           appropriate.

                    OIG Position. We accept management decision for this recommendation.

Recommendation 8

                    Include procedures in the next FNS management evaluation to verify that
                    corrective actions are taken in response to single audit recommendations.

                    Agency Response. In its December 16, 2005, response, FNS officials
                    stated:

                           FNS concurs with this recommendation. These procedures are
                           already incorporated into the Financial Management Review
                           (FMR) Guide. The FMR Guide specifically states that FNS
                           should review audit findings (both A-133 and OIG) when
                           planning for the review. Further, the review team “should
                           note corrective actions the grantee claims to have completed
USDA/OIG-A/27099-60-AT                                                                 Page 17
                          and actions still in process, for subsequent follow-up on-site.”
                          We will also expand our program internal review module
                          when appropriate to verify that corrective actions are taken in
                          response to single audit recommendations on program issues.

                    OIG Position. We accept management decision for this recommendation.




USDA/OIG-A/27099-60-AT                                                                   Page 18
Scope and Methodology
                    This audit was performed in accordance with generally accepted government
                    auditing standards and covered FYs 2002 though 2004. Audit work was
                    performed at the FNS Caribbean Area Office and DOF State Office located
                    in San Juan, Puerto Rico. We also performed reviews of 1 sponsor and
                    10 employers located throughout Puerto Rico (see exhibit E). Audit fieldwork
                    was performed from October 2003 through January 2005.

                    To accomplish the audit objectives, our work consisted of the following:

                         •   Review of laws, regulations, and instructions applicable to the
                             program.

                         •   Interviews with     FNS     officials,   and   review   of   pertinent
                             correspondence.

                         •   Interviews with DOF officials and review of DOF policies,
                             procedures, management reports, and other correspondence.

                         •   Interviews with the largest sponsor to understand sponsors’
                             responsibilities and program operations.

                         •   Interviews with a judgmental selection of employers to review their
                             procedures to register hours worked by SWIP participants and what
                             type of hours they claimed to DOF for wage reimbursement.

                         •   Review of a sample of NAP participants claimed by the interviewed
                             employers to determine the accuracy of the claims.

                         •   Review of NAP participants’ files at the local offices of DOF to
                             ascertain any determinations made by the local office after the income
                             exemption period for NAP participants ended.

                         •   Review of sponsors’ financial statements to determine if DOF
                             reimbursed 50 percent of sponsor’s administrative expenses.




USDA/OIG-A/27099-60-AT                                                                     Page 19
Exhibit A – Summary of Monetary Results
                                                               Exhibit A – Page 1 of 1



 Finding
 Number              Description        Amount               Category

    2      Improper reimbursement of   $11,780,275   Questioned Costs, Recovery
           administrative expenses.                        Recommended




USDA/OIG-A/27099-60-AT                                                      Page 20
Exhibit B – SWIP Budget for FYs 2002 through 2004
                                                                                                                                Exhibit B – Page 1 of 1


         FY 2002
                                                                                             Budget                    Actual
          Number of NAP
          participants to be hired
          under SWIP                                                                                          18,208            26,215
          Number of employers                                2,2882/

          Wages Incentives for
          Employers                                                                                $49,429,036           $49,429,036
          SWIP Administration
          Costs1/                                                                                    8,202,090             8,202,090
          Totals                                                                                   $57,631,126           $57,631,126



         FY 2003
                                                                                             Budget                    Actual
          Number of NAP
          participants to be hired
          under SWIP                                                                                          20,400            27,682
          Number of employers                                2,8282/

          Wages Incentives for
          Employers                                                                                  64,522,992           60,193,380
          SWIP Administration
          Costs1/                                                                                     5,246,808           11,371,562
          Totals                                                                                     69,769,800           71,564,942



         FY 2004
                                                                                             Budget                    Actual
          Number of NAP
          participants to be hired
          under SWIP                                                                                          21,000            37,060
          Number of employers                                1,4982/

          Wages Incentives for
          Employers                                                                                $64,459,212           $77,526,705
          SWIP Administration
          Costs1/                                                                                    5,400,488             9,662,745
          Totals                                                                                   $69,859,700           $87,189,450

             1/The amount includes DOF administrative costs and the reimbursement made to sponsor agencies.
             2/ Based on information reported in DOF’s semiannual reports.




USDA/OIG-A/27099-60-AT                                                                                                                       Page 21
 Exhibit C – Excessive Reimbursements for Sponsors’ Administrative Costs
                                                                                                                                   Exhibit C – Page 1 of 1


                                FY 2002                                        FY 2003                                             FY 2004
                   Actual    OIG Computed                         Actual    OIG Computed                          Actual    OIG Computed
Sponsor Agency Reimbursement Reimbursement      Difference    Reimbursement Reimbursement       Difference    Reimbursement Reimbursement           Difference
     A               $87,000         $43,500        $43,500         $74,750          $37,375        $37,375            $26,500           $13,250        $13,250


     B              82,750.00        $41,375        $41,375          76,500           38,250         38,250                    0              0                  0


     C               180,500         $90,250        $90,250        1,038,250         519,125        519,125            897,450           448,725        448,725


     D               929,250        $464,625      $464,625          766,500          383,250        383,250            574,250           287,125        287,125


     E                52,750         $26,375        $26,375          32,750           16,375         16,375                    0              0                  0


     F               262,600        $131,300      $131,300          606,800          303,400        303,400            274,800           137,400        137,400


     G                      -              $-            $-           5,750            2,875          2,875                    0              0                  0


     H               598,250        $299,125      $299,125          900,500          450,250        450,250            811,250           405,625        405,625


      I              347,750        $173,875      $173,875          407,750          203,875        203,875            544,750           272,375        272,375


      J              137,000         $68,500        $68,500         396,250          198,125        198,125            261,250           130,625        130,625


     K                41,500         $20,750        $20,750          44,500           22,250         22,250             30,250            15,125         15,125


     L               647,250        $323,625      $323,625         1,252,750         626,375        626,375          1,276,750           638,375        638,375


     M              3,069,500      $1,534,750    $1,534,750        3,372,500        1,686,250     1,686,250          3,451,650         1,725,825      1,725,825


Totals             $6,436,100      $3,218,050    $3,218,050       $8,975,550      $4,487,775     $4,487,775         $8,148,900         4,074,450      4,074,450




                                                 Total Actual Reimbursements for FYs 2002-2004                   $23,560,550
                                   Less: Total OIG Computed Reimbursements for FYs 2002-2004                     $11,780,275
                                                                      Excessive Reimbursement                    $11,780,275


                                         Source: Summary of Expenses for Federal FYs 2002-2004 provided by DOF




 USDA/OIG-A/27099-60-AT                                                                                                                            Page 22
Exhibit D – DOF Reimbursements Made to Five Sponsors
                                                                                                                         Exhibit D – Page 1 of 1



                                                                                         2002
                                                                                         Expenses
                                                                            Actual     Reported in  50% of
                                                                        Reimbursement1/ Financial  Reported
        Sponsors                         Period Covered                                 Statements Expenses
             M                           Jan. - Dec. 2002                    $2,881,000 $1,855,977   $927,989


             C                           Jan. - Dec. 2002                            262,250     217,251      108,626


             J                          Mar. – Dec. 2002                             212,750     127,444       63,722


             L                           Jan. - July 2002                            382,250     157,013       78,507


              I                     Oct. 2001 - Sept. 2002                           347,750     341,342      170,671


                                Totals                                           $4,086,000    $2,699,027   $1,349,515



                                                                                         2003
                                                                                         Expenses
                                                                            Actual     Reported in  50% of
                                                                        Reimbursement1/ Financial  Reported
        Sponsors                         Period Covered                                 Statements Expenses
             M                           Jan. - Dec. 2003                    $3,758,300 $2,133,781 $1,066,891


             C                           Jan. - Dec. 2003                          1,221,200     828,794      414,397


             J                           Jan. - Dec. 2003                            449,250     348,468      174,234


             L                           Jan. - Dec. 2003                          1,416,750     668,050      334,025


              I                     Oct. 2002 - Sept. 2003                           452,750     410,341      205,171


                                Totals                                           $7,298,250    $4,389,434   $2,194,718


                  Totals for both 2002 & 2003                                   $11,384,250    $7,088,461   $3,544,233
1/
     Based on a $250 rate used by DOF to reimburse sponsors for administrative expenses.




USDA/OIG-A/27099-60-AT                                                                                                                Page 23
Exhibit E – Locations Visited
                                                        Exhibit E – Page 1 of 1


          Entity                    Name          Location
           FNS     Caribbean Area Office   San Juan, PR
          State    DOF and ASED            San Juan, PR
         Sponsor                      M    Guaynabo, PR
        Employer                       N   Carolina, PR
        Employer                       O   Toa Alta, PR
        Employer                       P   Rio Piedras, PR
        Employer                       Q   Cataño, PR
        Employer                       R   Rio Piedras, PR
        Employer                       S   Hato Rey, PR
        Employer                       T   Cataño, PR
        Employer                       U   Caguas, PR
        Employer                       V   Rio Piedras, PR




USDA/OIG-A/27099-60-AT                                               Page 24
Exhibit F – Agency Response
                              Exhibit F – Page 1 of 4




USDA/OIG-A/27099-60-AT                     Page 25
Exhibit F – Agency Response
                              Exhibit F – Page 2 of 4




USDA/OIG-A/27099-60-AT                     Page 26
Exhibit F – Agency Response
                              Exhibit F – Page 3 of 4




USDA/OIG-A/27099-60-AT                     Page 27
Exhibit F – Agency Response
                              Exhibit F – Page 4 of 4




USDA/OIG-A/27099-60-AT                     Page 28
Informational copies of this report have been distributed to:

Regional Administrator, FNSRO (6)
Agency Liaison Officer (3)
Government Accountability Office (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
Office of Management and Budget (1)
